NO. 19-765

IN THE

Supreme Court of the United States
MICHAEL FAUST, in his official capacity as Director of the Arizona Department of Child Safety,
Petitioner,
v.
B.K., by her next friend Margaret Tinsley, et al.
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I hereby certify that I am a
member in good standing of the bar of this Court and that the Brief of Amicus
Curiae Secretaries’ Innovation Group in Support of Petitioner contains 5,762 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d), and complies with the word limitation established by Supreme Court Rule
33.1(g)(x).
Dated: January 15, 2020
/s/ John J. Bursch
John J. Bursch

